Before the Committee on Transportation and Infrastructure

U.S. House of Representatives


For Release on Delivery   Federal Aviation Administration
expected at
3:00 p.m. EDT             Efforts to Locate Aircraft N711RD
Tuesday
July 15, 2003
CC-2003-123




                          Statement of
                          The Honorable Kenneth M. Mead
                          Inspector General
                          U.S. Department of Transportation
Mr. Chairman, Representative Oberstar and Members of the Committee:

Our testimony today will report on the results of our investigation into efforts by
FAA to locate a private aircraft reportedly associated with absent Texas legislators
on May 12, 2003.

Our investigation was requested by Senator Joseph I. Lieberman, Ranking
Minority Member of the Senate Committee on Governmental Affairs, by letter
dated May 27, 2003. We responded to Senator Lieberman by letter dated July 11,
2003. A copy of our response was provided to the Committee on July 11, and we
have included it, as well, as an attachment to our testimony.

Prior to our receiving Senator Lieberman’s request for investigation, the Secretary,
as soon as he and his office learned of FAA’s involvement in this matter, directed
the Department’s General Counsel to investigate the facts and circumstances of
FAA’s involvement. The General Counsel suspended his investigation when we
initiated ours.

Our investigation included over thirty (30) interviews of individuals, examination
of FAA transcripts and other FAA and Department of Transportation records, and
research we performed to determine the extent to which flight data information
about general aviation aircraft is publicly available.

The Committee requested our testimony pursuant to consideration of House
Resolution 288. On July 14, 2003, we provided supporting documents to the
Committee pursuant to their official request.

We would like to acknowledge the cooperation of the Secretary and his senior
staff, as well as the Federal Aviation Administrator. The Secretary and the
Administrator fully concurred with our findings and recommendations, and the
Department and FAA are taking remedial action in response. As part of our
investigation, we interviewed the staff member for Representative DeLay who
contacted FAA’s Assistant Administrator for Government and Industry Affairs for
assistance on May 12. We would like to thank Representative DeLay for his
cooperation in making his staff available to be interviewed and for providing
additional information.

Our testimony today will summarize our investigative findings, our
recommendations to the Department, and the actions the Department is taking in
response.

Our investigative results are presented as follows:
                                                                                 2



1. On May 12, 2003, FAA received requests from three organizations for
   information about N711RD.

• On May 12, 2003, at least 13 FAA employees, over an eight-hour period of
  time, responded to requests for information about N711RD from three
  organizations: the Texas Department of Public Safety (DPS), the Department
  of Homeland Security, and the staff of Representative Tom DeLay.

• FAA provided all three of the requesting organizations with flight data about
  State Representative Laney’s plane. The contacts to FAA began just before
  1:00 p.m. EDT, when Texas DPS called FAA’s designated law enforcement
  liaison unit, which is based in Oklahoma City.

   According to the Oklahoma City FAA employee who received the inquiry, the
   DPS caller said that over 50 Texas legislators were “in hiding” and that the
   Governor of Texas had issued a warrant for their apprehension. We were
   unable to ascertain whether the Governor had issued any warrant, though DPS
   provided a copy of a May 12 letter from the Texas Attorney General asserting
   the legality of DPS’ actions. We are aware that the District Court for Travis
   County, Texas, ruled on July 10 that DPS’ actions were not lawful; however,
   reports indicate that an appeal of that ruling is anticipated.

   The caller said that DPS needed FAA’s assistance in locating a plane believed
   to be carrying legislators. The FAA employee told us that since that FAA
   office lacks the direct capability to locate aircraft, and DPS did not have the
   plane’s tail number or name of the pilot, she simply referred DPS to a
   Department of Homeland Security facility in California, without providing any
   information.

• The next inquiry was around 4:00 p.m. EDT, when a senior staffer for
  Representative DeLay called David Balloff, FAA’s Assistant Administrator for
  Government & Industry Affairs, asking for the current location of N711RD.
  Balloff checked with FAA’s Washington Operations Center and—at 4:21 p.m.
  EDT—advised the staffer that the plane would be landing in about seven
  minutes in Ardmore, OK. When Balloff advised the staffer of this, she then
  requested the locations of the plane on May 11, the day before. The
  information the Operations Center provided Balloff was from FAA databases,
  but comparable information was publicly available thru commercial databases
  accessible via the internet.

   Balloff told us that Rep. DeLay’s staffer offered no explanation for the request
   and he did not ask about it, though he told us that having worked at the
                                                                                   3


   National Transportation Safety Board (NTSB), the first thing that came to his
   mind was that a safety issue might be involved.

• Lastly, beginning at about 8:40 p.m. EDT, air traffic controllers in FAA’s Fort
  Worth Center were contacted, first by the Department of Homeland Security
  facility in California, and then by Texas DPS. In response, the controllers
  provided current aircraft location and flight plan information to callers from
  both the Department of Homeland Security and DPS. This included
  information that N711RD had departed Ardmore that evening around 8:00 p.m.
  EDT and appeared to be heading for Mineral Wells, TX. At least two
  controllers were aware of the purpose of the inquiries at the time they were
  received.

   A Fort Worth controller told us that the DPS officer who called him said
   N711RD was overdue to arrive at Mineral Wells and requested a search and
   rescue operation. While the controller told the DPS officer that a search and
   rescue operation was not warranted as there was no evidence the plane had
   experienced flight trouble, the Fort Worth Center did post an “alert” for
   N711RD in its air traffic control computer system, which would have triggered
   immediate notification—to the Fort Worth Center only—had the plane
   contacted any air traffic control unit within the Center’s area of coverage.

   When DPS advised an FAA controller that the plane had not arrived at Mineral
   Wells, the controller informed the DPS officer of four or five airports in the
   vicinity of the Mineral Wells airport where the plane could have landed,
   including Graham, TX. Later that night, DPS located the plane in Graham,
   TX, and notified the Fort Worth Center, which, at some point after 11:30 p.m.
   EDT, canceled the alert.

2. FAA lacks clear internal guidance for the processing of requests for FAA
   flight information received from law enforcement and other government
   entities. A separate issue exists concerning public availability to aircraft
   location and flight data via commercial databases.

• FAA lacks clear internal guidance for the processing of requests for FAA flight
  information received from law enforcement and other government entities. A
  separate issue exists concerning public availability to aircraft location and
  destination data via commercial databases.

   Specifically, FAA protocols for the processing of information requests from
   law enforcement or other government entities require considerable
   strengthening. We found that air traffic controllers took no action to verify the
   identities of callers, inquire about the reason for the request (i.e., in order to
                                                                                  4


   identify flight safety issues), or log the contacts—to include annotating the
   information that was provided. In fact, none of the involved Fort Worth
   controllers even recalled the name of the caller purporting to be a DPS officer.
   The controllers believed they were responding to legitimate law enforcement
   inquiries, of which they receive such requests on only an occasional basis.

   We recommended to the Secretary that clear policy and procedures in this area
   be implemented. The Secretary and Administrator have concurred with our
   findings and recommendation, and are prescribing new policy guidelines.

• As distinguished from the above issue concerning FAA’s need for clear
  internal policy, we note the broader, and more complex, issue of public
  availability to aircraft location and flight data. While the information FAA
  personnel provided about N711RD was retrieved from FAA databases, we
  confirmed that comparable information—including near real-time aircraft
  locator data (5-10 minute lag)—is currently available to the general public
  through commercial databases accessible via the internet.

   Using known internet search engines, we were able to quickly determine the
   current locations (near real-time) and destinations of airborne general aviation
   aircraft, as well as historical destination data. In fact, using the internet, we
   were able to determine the locations of N711RD on May 12. Pursuant to a
   request from Representatives Oberstar and Turner, this issue is currently the
   subject of review by the Department and FAA.

   We recommended to the Secretary that this issue continue to receive close
   examination by senior levels of the Department and FAA, in consultation with
   other Government agencies. The Secretary and Administrator concurred.

3. The Administrator and the Secretary should have been informed sooner of
   FAA’s involvement. Information that FAA provided flight data to the
   Department of Homeland Security, DPS, and Rep. DeLay’s staff was not
   communicated to the Administrator and the Secretary until May 21.

• We found that the FAA Administrator and the Secretary should have been
  informed sooner of FAA’s involvement. Information that FAA provided flight
  data to the Texas Department of Public Safety, the Department of Homeland
  Security, and Rep. DeLay’s staff was not communicated to the Administrator
  and the Secretary until May 21. When the Administrator and the Secretary
  were finally informed, they recognized its importance and took timely,
  appropriate action to have the circumstances investigated.
                                                                                  5


   On May 15, a Minority staffer for the House Homeland Security
   Appropriations Subcommittee asked FAA whether the agency had been
   contacted by anyone on May 12 for information about N711RD. As a result of
   this inquiry, FAA’s Chief of Staff, David Mandell, directed fact-finding. It
   was not until May 21 that Mandell learned that Balloff and FAA’s Fort Worth
   Center had provided information. Mandell notified the Administrator and the
   Department’s Chief of Staff, who, in turn, immediately informed the Deputy
   Secretary, General Counsel, and the Secretary.

   We did not find Balloff’s actions in this matter to have violated any rules or
   regulations. However, while we do not have evidence that Balloff knew the
   purpose of the staffer’s request when he responded to it, we do not understand
   why he did not ask the staffer about the purpose of her request—particularly
   since he told us he thought it might involve a safety issue.

   We concluded that Balloff should have promptly informed the Administrator
   of the information he provided in response to the request from Rep. DeLay’s
   staffer when he realized, on May 13, after reading the Washington Post, that
   this matter was one of national attention. Had he reported the contact at that
   point, the Administrator and the Secretary would have been informed more
   than a full week earlier, thus enabling FAA to be responsive to the Minority
   staffer for the Homeland Security Appropriations Subcommittee, who had
   asked whether FAA had received any inquiries about the plane.

4. Remedial Actions Taken

   In conclusion, we believe the actions taken by the Department are responsive
   to the recommendations we made pursuant to our investigative findings. The
   full text of the Department’s response is provided as an attachment to our letter
   report to Senator Lieberman. We anticipate no further investigative action in
   this matter. However, we will advise you of the implementation of the
   Department’s actions as soon as they are complete.
                                                                                6


Summary of Findings



1. On May 12, 2003, FAA received requests from three organizations for

   information about N711RD.



   Our investigation found that on Monday, May 12, FAA personnel in

   Oklahoma City, OK, Washington, DC, and Fort Worth, TX, received separate

   requests for information as to the location and destinations of a general

   aviation airplane reportedly associated with the absent Texas legislators. This

   airplane, a twin-engine Piper Cherokee—tail number N711RD—is registered

   to State Representative Pete Laney. We found that at least 13 FAA personnel

   were involved in responding to the various requests for information about

   N711RD on May 12.



(a) At approximately 1:00 p.m. EDT, the Texas Department of Public Safety

   (DPS) called an FAA office in Oklahoma City.



   This FAA unit, based in Oklahoma City, is responsible for law enforcement

   liaison agency-wide.   According to the FAA employee who received the

   inquiry, the caller said that over 50 Texas legislators were in hiding and that

   the Governor of Texas had issued a warrant for their apprehension.
                                                                            7


DPS asked for FAA’s assistance in locating a plane believed to be carrying

some of the legislators. As this FAA office lacks the direct capability to

locate aircraft, and DPS did not have the plane’s registration/tail number or

the pilot’s name, it simply referred DPS to the Department of Homeland

Security’s Air & Marine Interdiction Coordination Center (AMICC) in

Riverside, CA, without providing any information.



We were unable to ascertain whether, in fact, the Governor ever issued any

warrant or summons. However, Texas DPS provided us with a copy of a letter

from the Attorney General of Texas to the Director of DPS, dated May 12,

2003, upholding, as lawful, a letter to DPS, on that same date, from the

Sergeant-at-Arms of the Texas House, requesting that DPS secure and return to

the House, by any available means, absent House members.           The Texas

Attorney General’s letter cites legal authority under the State’s Constitution

and House Rules “to arrest absentees wherever they may be found.” A copy of

this letter is included in the documentation we provided to the Committee. We

are aware that the District Court for Travis County, Texas, ruled on July 10

that DPS’ actions were not lawful; however, reports indicate that an appeal of

that ruling is anticipated.
                                                                                 8


(b) Around 4:00 p.m. EDT, a staffer for Representative Tom DeLay called

   David Balloff, FAA’s Assistant Administrator for Government and Industry

   Affairs.



   A senior staffer for Representative DeLay called David Balloff, FAA’s

   Assistant Administrator for Government & Industry Affairs at approximately

   4:00 p.m. EDT, asking for the current location of N711RD. Balloff checked

   with FAA’s Washington Operations Center and advised the staffer at

   approximately 4:21 p.m. EDT that the plane would be landing in about seven

   minutes in Ardmore, OK.       Upon informing the staffer of this, she then

   requested the plane’s locations on May 11.        Balloff again contacted the

   Operations Center and early in the evening of May 12, he called the staffer,

   providing her with the requested information.



   As Washington Operations Center telephone communications are recorded,

   we obtained a transcript for May 12 that included Balloff’s conversations with

   Operations Center Personnel. We included a copy of this transcript in our

   response to Senator Lieberman and in the documentation we provided the

   Committee.



   Per our review, the earliest media report that absent Texas legislators had been

   located in Ardmore occurred after Balloff’s 4:20 p.m. EDT advisement to
                                                                                9


   Rep. DeLay’s staffer. A May 14 Fort Worth Telegram article states, “The

   location of Laney’s plane proved to be a key piece of information because,

   [Texas House Speaker Tom] Craddick said, it’s how he determined that the

   Democrats were in Ardmore.”



   Balloff told us that Rep. DeLay’s staffer offered no explanation for her

   request and he did not ask her about it, though he stated to us, “Having

   worked at the [National Transportation Safety Board], the first thing that came

   to my mind was a safety issue.” We interviewed Rep. DeLay’s staffer, who

   corroborated Balloff’s account of their conversations. We also identified and

   interviewed a GS-15 subordinate of Balloff’s, who was present with him when

   Balloff called the Operations Center to ascertain the plane’s current location

   and in turn informed the staffer that it was landing shortly in Ardmore. The

   GS-15 employee confirmed that in calling the staffer back, Balloff did not

   query her about the reason for the request or whether there was a flight safety

   concern involved. According to the GS-15 employee, Balloff indicated no

   awareness of the purpose of the staffer’s request.



(c) Beginning around 8:40 p.m. EDT, the Department of Homeland Security’s

   AMICC facility, followed by Texas DPS, called FAA’s Fort Worth Air

   Route Traffic Control Center.
                                                                               10


Beginning at about 8:40 p.m. EDT on May 12, a series of five calls were

placed to FAA’s Fort Worth Center by representatives of the Department of

Homeland Security and DPS requesting the current location of N711RD,

which having landed earlier at Ardmore, had taken-off again heading back

into Texas. Air traffic controllers in the Fort Worth Center provided aircraft

location and flight plan information to the Department of Homeland Security

and DPS callers. We found that the controllers believed they were responding

to legitimate law enforcement inquiries, of which they receive such requests

on only an occasional basis.



At least two controllers in Fort Worth were aware of the purpose of the

inquiries at the time they were received and processed.           A supervisory

controller told us he first learned of the search for the absent Texas legislators

from local news reports prior to reporting for work on May 12. He advised

that later, in fielding the call from DPS, he stated to the DPS officer, “You

must be looking for the missing Democrats,” which the officer acknowledged.



A second Fort Worth controller related that in contacting an Air Traffic

Control facility in Lubbock, pursuant to a call he received from the

Department of Homeland Security, the controller with whom he spoke said,

“You know who that [plane] belongs to, don’t you? It’s the outgoing Speaker,

Laney, Speaker of the House.”
                                                                          11




A Fort Worth controller told us that the DPS officer who called him said

N711RD was overdue to its presumed destination of Mineral Wells and

requested a search and rescue operation; earlier that evening, FAA’s Fort

Worth Center had informed the Department of Homeland Security facility in

California that N711RD had an active flight plan from Ardmore to Mineral

Wells. The Department of Homeland Security in turn passed this information

on to DPS. The controller advised the DPS officer that a search and rescue

operation was not warranted as there was no evidence the plane had

experienced trouble in flight.



A Fort Worth controller also advised that during the evening of May 12, the

Fort Worth Center entered an “alert” for N711RD in the Air Traffic Control

computer system. An alert would have triggered immediate notification to the

Fort Worth Center had the plane contacted any air traffic control unit within

the Fort Worth Center’s area of coverage. The alert was canceled that night,

at some point after 11:30 p.m. EDT according to a supervisory controller,

when DPS located the plane on the ground in Graham, TX, which is in the

vicinity of Mineral Wells. The Fort Worth Center had informed the DPS

officer of four or five airports in the vicinity of the Mineral Wells airport

where the plane could have landed.
                                                                                    12


2. FAA lacks clear internal guidance for the processing of requests for FAA

   aircraft/flight information received from law enforcement and other

   Government entities.         A separate issue exists concerning public

   availability to aircraft location/flight data via commercial databases.



   It is clear from our findings that FAA protocols for the processing of

   information requests from law enforcement or other government entities

   require considerable strengthening. We did not consider it our role, nor did

   we attempt as part of our investigation, to define what does, and does not,

   constitute a legitimate request from law enforcement and other government

   organizations.     As indicated below, we have recommended that the

   Department and FAA address the issue of availability of flight data as part of

   their remedial actions in response to this investigation.



   Personnel at FAA’s Washington Operations Center, the Fort Worth Center,

   and the law enforcement liaison office in Oklahoma City related that they

   receive aircraft location and flight information requests from law enforcement

   and other government entities on an occasional basis, though they were

   uncertain of the volume of requests they receive per week or month. The

   controllers we interviewed were not aware of any protocols to follow in

   responding to such requests. We found that controllers took no action to

   verify the identities of callers, inquire about the reason for the request (i.e., in
                                                                           13


order to identify flight safety issues), or log the contacts—to include

annotating what information was provided. In fact, none of the involved Fort

Worth controllers even recalled the name of the caller purporting to be a DPS

officer. If the calls had concerned a safety of flight issue, for example, the

controllers would not have known who specifically to call back to provide

further assistance if necessary.



Such a method of operation potentially limits FAA’s effectiveness in carrying

out its safety mission. At the same time, such a lack of protocols creates

additional vulnerabilities, namely the possibility of releasing data from its

information systems to individuals who may falsely identify themselves as

law enforcement or other government officials.



Further, we found that there was some uncertainty and confusion on the part

of FAA personnel as to whether flight data was publicly releasable. This, too,

supports the need for clear policy guidance. As addressed below, we have

recommended to the Secretary that clear policy and procedures in this area be

implemented.     The Secretary and Administrator have concurred with our

findings and recommendation, and are prescribing new policy guidelines.



As distinguished from the above issue of clear policy and procedures needed

for requests for information from FAA databases, we also note the broader,
                                                                              14


and more complex, issue of public availability of aircraft location and flight

data. While the information FAA personnel provided about N711RD was

retrieved from FAA databases, we confirmed that comparable information—

including near real-time aircraft locator data—is currently available to the

general public through commercial databases accessible via the internet.



Through a program known as the Aircraft Situation Display to Industry

(ASDI), DOT’s Volpe Center makes certain raw FAA Air Traffic Control

data—both near real-time (5-10 minute lag) and historical—for general

aviation and commercial aircraft, available to designated industry parties in

accordance with user agreements. The industry parties, in turn, process the

data and make it publicly available (some requiring subscription fees) via the

internet. Our research shows that similar capabilities exist for general aviation

and commercial aircraft operating in Canada, England, the Caribbean, and

over the Atlantic and Pacific Oceans.



Using known internet search engines, we were able to quickly determine the

current locations (near real-time) and destinations of airborne general aviation

aircraft, as well as historical aircraft destination data. In fact, on June 10,

when we performed our internet search, were able to determine the flight

origination and destination points of N711RD on May 12. A copy of the
                                                                           15


  results of our research is included in the documentation we provided the

  Committee.



  We are aware that pursuant to a request from Representatives James Oberstar

  and Jim Turner, this issue is currently the subject of review by the

  Department’s General Counsel and FAA’s Chief Counsel. In their letter,

  Reps. Oberstar and Turner raised concern about “the homeland security

  implications of a policy that “routinely” makes information about the flight

  pattern of private aircraft available to the public.” We have recommended to

  the Secretary that this issue continue to receive close examination and

  deliberations by senior levels of the Department and FAA, in consultation

  with other appropriate Government agencies.



3. The Administrator and the Secretary should have been informed sooner

  of FAA’s involvement. Information that FAA provided flight data to the

  Department of Homeland Security, DPS, and Rep. DeLay’s staff was not

  communicated to the Administrator and the Secretary until May 21.



  We found that Administrator Marion Blakey first learned on May 16 that FAA

  had been asked for assistance on this matter. FAA’s Chief of Staff, David

  Mandell, informed her on May 16 that DPS had contacted FAA’s Oklahoma
                                                                              16


City office, but that DPS was referred to the Department of Homeland

Security facility in California, and no information was released.



On May 19 or 20, Mandell was briefed that DPS and the Department of

Homeland Security had called FAA’s Fort Worth Center, but he did not brief

the Administrator pending receipt of further details. On May 20, Mandell was

provided with a chronology prepared by FAA’s regional office in Fort Worth,

but he advised that he did not have an opportunity to read it until May 21.

This chronology showed, in summary form, Department of Homeland

Security and DPS contacts with Fort Worth controllers, but, more

significantly, it also showed that on May 12, the Fort Worth Center had

received a call from the Washington Operations Center requesting information

on N711RD.       This information caused Mandell to question how the

Operations Center became involved. Mandell then contacted the Operations

Center, ultimately learning that day, May 21, that Balloff had inquired of the

Operations Center about N711RD on May 12. Mandell then spoke to Balloff

and learned, for the first time, about the request from Rep. DeLay’s staff.



Shortly thereafter on May 21—but nine days after the fact—Mandell notified

the Administrator and the Department’s Chief of Staff, who, in turn,

immediately informed the Deputy Secretary, General Counsel, and the

Secretary. When the Administrator and the Secretary were finally informed of
                                                                                 17


Balloff’s contact with Rep. DeLay’s staffer, they recognized its importance

and, in our opinion, took timely and appropriate action to have the

circumstances investigated.



Balloff told us he first learned of the absent Texas legislators in reading the

Washington Post late on May 13. Balloff stated, in part, as follows:



“. . . I figured out why they were calling. . . I just felt like I had been used. .

. I don’t do anything for political purposes. . . and I just did not like. .

. somebody calling me for political reasons. . . I would never use my office to

help somebody out politically, for any political reasons, period.”



We did not find Balloff’s actions in this matter to have violated any rules or

regulations. However, while we do not have evidence that Balloff knew the

purpose of the staffer’s request when he responded to it, we do not understand

why he did not ask the staffer about the purpose of her request—particularly

since he told us he thought it might involve a safety issue.



Further, we concluded that Balloff should have promptly informed the

Administrator when he realized on May 13, after reading the Washington

Post, that the matter was one of national interest. Had he reported the contact

at that point, the Administrator and the Secretary would have been informed
                                                                         18


more than a full week earlier, thus enabling FAA to be responsive to the

Minority staffer for the House Homeland Security Appropriations

Subcommittee, who asked on May 15 whether FAA had received any

inquiries about the plane.



In fact, Balloff had the opportunity to disclose the contact on May 15 when

questioned by an FAA manager conducting fact-finding in relation to the

Subcommittee’s inquiry. In view of differing statements by this manager and

Balloff, we nonetheless believe that the manager’s inquiry of Balloff should

reasonably have elicited his disclosure of the request from Rep. DeLay’s

staffer. When we asked Balloff why he had informed no one, in light of the

matter becoming one of national attention, he advised that he did not know

why, stating he “just didn’t.”



DOT Chief of Staff Flaherty told us that he made a contemporaneous audio

dictation within a few hours of his May 21 discussions with Mandell, the

General Counsel, the Deputy Secretary, and the Secretary. We transcribed the

tape, which expresses that both he and the Secretary were perplexed over the

report they received that Rep. DeLay’s staffer had not explained the purpose

of the request, and that Balloff did not ask about it.
                                                                             19


Consistent with the concern expressed by DOT Chief of Staff Flaherty, we,

too, find it difficult to understand why Balloff did not ask Rep. DeLay’s

staffer about the purpose of the request, especially since, as a former

employee of the National Transportation Safety Board, Balloff told us he had

thought, at the time, that a safety issue might be involved.



Our correspondence to Senator Lieberman also noted that Balloff’s response

to our investigation contributed to our difficulty in understanding why he did

not inquire about the purpose of the request from Rep. DeLay’s staffer. In

particular, it was necessary for us to interview Balloff on four separate

occasions because he had not advised us of at least three events of

considerable relevance to the matter we were investigating.



Specifically, Balloff did not recall when interviewed that another person was

present with him when he called Rep. DeLay’s staffer to inform her of the

current location of N711RD, and then, upon reinterview after we identified

the individual, he still did not recall this person’s presence, even though this

person corroborated some of his statements.         Secondly, Balloff did not

disclose the May 15 inquiry of him by the FAA manager who conducted fact-

finding in response to the request of the Minority staffer for the House

Homeland Security Appropriations Subcommittee.
                                                                                 20


  When we learned of the FAA manager’s May 15 inquiry of Balloff and

  reinterviewed him, he told us that he had not recalled it during our initial

  interview. Third, Rep. DeLay’s staffer told us that on the morning of May 13,

  she sent Balloff an email that included a newspaper article about the matter in

  Texas. Rep. DeLay’s office provided us with a copy of the email, reflecting

  that the staffer sent it to Balloff at 11:23 a.m., followed by text of an online

  article from the Houston Chronicle, captioned “Some rebel Texas lawmakers

  surface in Oklahoma town.” Balloff told us he did not recall having seen it.



  Recommendations



  We have briefed senior levels of the FAA and the Office of the Secretary

  regarding our investigative results in this matter and have made the following

  recommendations for remedial action:



• As discussed above, we have recommended that the Department, in

  consultation with the FAA, develop specific policy and procedures regarding

  the processing of requests for aircraft and flight data from FAA’s information

  systems.    In the interest of enhancing security and safety, we believe

  procedures should be instituted for FAA personnel—throughout the agency—

  to (a) positively identify requestors by name, organization, and point-of-

  contact; (b) inquire about the purpose of requests (i.e., in order to identify and
                                                                                  21


   address safety issues); and (c) formally log requests, with annotations as to

   what, if any, information was provided by FAA. Regarding (b) above, we

   recognize that there may be confidential reasons for law enforcement and

   other government agencies to request aircraft/flight information. Accordingly,

   procedures are needed for handling such confidential requests.



• Pursuant to the request from Representatives Oberstar and Turner, the issue of

   public availability (i.e., via the internet) of Air Traffic Control data, issue is

   currently the subject of review by the Department’s General Counsel and

   FAA’s Chief Counsel. We have recommended that this issue continue to

   receive close examination and deliberations by senior levels of the

   Department and FAA. Also, we recommended that the Department’s review

   include a determination of the extent to which DOT’s Volpe Center and its

   contractors have coordinated their actions (vis-à-vis public availability of Air

   Traffic Control data) with FAA and the Department.



   Remedial Actions by the Department and FAA



   The Office of the Secretary and the FAA have reviewed our report, and the

   Secretary and the Administrator fully concur with our findings and

   recommendations.     In response, the Department and FAA are taking the

   following remedial actions:
                                                                                  22




1. The FAA Administrator and Chief Counsel have counseled Assistant

   Administrator David Balloff, verbally and in writing, concerning issues in

   regard to his judgment in this matter.



2. With respect to FAA’s need for clear policy for the disclosure of aircraft and

   flight data from FAA information systems, the FAA Administrator and Chief

   Counsel have prepared a draft FAA Order addressing those matters for the

   Secretary’s review. Upon approval by the Secretary, the FAA Order will be

   distributed agency-wide, and will be provided directly to FAA personnel

   having access to such information.



3. Regarding the issues associated with public availability (i.e., via the internet)

   of Air Traffic Control data, the Department and FAA are continuing to study

   the matter and will provide us with a copy of the written results upon

   completion. Following the terrorist attacks of September 11, the FAA had

   reviewed this subject, and recently conducted an informal review of these

   issues as a direct result of the issues we investigated in this matter. As part of

   the current review, the Department and FAA have already consulted with the

   Transportation Security Administration (TSA) and plan to obtain TSA’s

   formal assessment of the potential threats to aviation security.
                                                                   23


This concludes my prepared statement. I would be pleased to answer any

questions of the Committee.
